SEMIANNUAL REPORT TO THE CONGRESS
    OCTOBER 1, 2004 – MARCH 31, 2005

     OFFICE OF INSPECTOR GENERAL

   NATIONAL ENDOWMENT FOR THE ARTS




                          April 29, 2005
MEMORANDUM

TO:           Dana Gioia
              Chairman

FROM:         Daniel L. Shaw
              Inspector General

SUBJECT:      Semiannual Report to the Congress: October 1, 2004 – March 31, 2005

The Inspector General Act of 1978 (Public Law 95-452), as amended, calls for the preparation of
semiannual reports to the Congress summarizing the activities of the Office of Inspector General (OIG)
for the six-month periods ending each March 31 and September 30. I am pleased to enclose the
report for the period from October 1, 2004 to March 31, 2005.

The Inspector General’s report covers audits, investigations and other reviews conducted by the OIG,
and indicates the status of management decisions whether to implement or not to implement
recommendations made by the OIG. The President’s Council on Integrity and Efficiency developed
the reporting formats for Tables I and II to ensure consistent presentation by the Federal agencies.
The tables provide only summary totals and do not include a breakdown by auditee.

The Act requires that you transmit the report to the appropriate committees of the Congress within 30
days of receipt, together with any comments you may wish to make. Comments that you might offer
should be included in your "Report on Final Action," a management report that is required to be
submitted along with the Inspector General’s report. We will work closely with your staff to assist in
the preparation of the management report. The due date for submission of both reports is May 30,
2005.

I appreciate the continuing support we have received from the Chairman’s Office and your managers
throughout the Agency. Working together, I believe we have taken positive steps to improve Agency
programs and operations. We look forward to continuing these efforts.
                                     TABLE OF CONTENTS


                                                                                 PAGE


NEA PROGRAMS AND OPERATIONS                                                        1

OIG RESPONSIBILITIES AND RESOURCES                                                 1

SUMMARY OF WORK COMPLETED BY THE OIG                                               2

    Audits/Reviews                                                                 2
    Audit Resolution                                                               2
    Investigations                                                                 2
    Indirect Cost Rate Negotiations                                                2
    Review of Legislation, Rules, Regulations and Other Issuances                  3
    Technical Assistance                                                           3
    Web Site                                                                       3
    Other Activities                                                               3

SECTIONS OF REPORT                                                                 4

    SECTION 1 - Significant Problems, Abuses and Deficiencies                      4

    SECTION 2 - Recommendations for Corrective Action                              4

    SECTION 3 - Recommendations in Previous Reports on Which
                  Corrective Action Has Not Been Implemented                       4

    SECTION 4 - Matters Referred to Prosecuting Authorities                        4

    SECTION 5 - Denials of Access to Records                                       4

    SECTION 6 - Listing of Reports Issued                                          5

    SECTION 7 - Listing of Particularly Significant Reports                        6

    SECTION 8 - Statistical Tables Showing Total Number of Audit Reports
                  and the Dollar Value of Questioned Costs                         6

    SECTION 9 - Statistical Tables Showing Total Number of Audit Reports
                  and the Dollar Value of Recommendations that Funds be
                  Put to Better Use by Management                                  6

    SECTION 10 - Audit Reports Issued Before the Commencement of the Reporting
                  Period for Which No Management Decision Has Been Made by
                  the End of the Reporting Period                                  6
                                   TABLE OF CONTENTS
                                                                                         PAGE


     SECTION 11 - Significant Revised Management Decisions Made During the Period           6

     SECTION 12 - Significant Management Decisions With Which the Inspector
                    General Disagrees                                                       6

TABLE I - Inspector General Issued Reports With Questioned Costs                            7

TABLE II - Inspector General Issued Reports With Recommendations That Funds
             Be Put To Better Use                                                           8

Definitions of Terms Used                                                           Appendix A
NEA PROGRAMS AND OPERATIONS

Since its founding by the U.S. Congress in 1965, the National Endowment for the Arts (NEA) has
offered assistance to a wide range of non-profit organizations and individuals that carry out arts
programming. The NEA supports exemplary projects in all the artistic disciplines. Grants are awarded
to arts, educational, and community organizations for specific projects rather than for general
operating or seasonal support. Most NEA grants must be matched by non-federal sources. During FY
2005, NEA received an appropriation of $121.26 million while maintaining a FTE estimated at 156
annualized. The Agency has requested $121.26 million for FY 2006.

OIG RESPONSIBILITIES AND RESOURCES

On October 18, 1988, the President signed Public Law 100-504, the Inspector General Act
Amendments of 1988. This law amended the Inspector General Act of 1978, Public Law 95-452, and
required the establishment of independent Offices of Inspector General (OIG) at several designated
Federal entities and establishments, including the National Endowment for the Arts. The Inspector
General is appointed by and serves under the general supervision of the NEA's Chairman. The
mission of the OIG is to:

       - Conduct and supervise independent and objective audits and investigations relating to NEA
         programs and operations;

       - Promote economy, effectiveness and efficiency within the NEA;

       - Prevent and detect fraud, waste and abuse in NEA programs and operations;

       - Review and make recommendations regarding existing and proposed legislation and
         regulations relating to NEA programs and operations; and

       - Keep the NEA Chairman and the Congress fully and currently informed of problems in
         Agency programs and operations.

This semiannual report summarizes the OIG's major activities, initiatives and results for the six-month
period ending March 31, 2005. During this period, the OIG consisted of two auditors and one program
analyst. There is no investigator on the staff. In order to provide a reactive investigative capability, we
have signed a Memorandum of Understanding with the Inspector General of the General Services
Administration (GSA) whereby the GSA's OIG agrees to provide investigative coverage for us on a
reimbursable basis as needed. (No investigative coverage from GSA was needed during the recent
six-month period.) We have also signed a Memorandum of Understanding with the NEA's Office of
General Counsel (OGC) that details procedures to be used for providing the OIG with legal services.
An OGC staff member has been assigned to provide such services on an as-needed basis.




                                                                                                          1
SUMMARY OF WORK COMPLETED BY THE OIG

During the six-month period ending March 31, 2005, the OIG conducted the following audits, reviews,
investigations and other activities.

Audits/Reviews

During the recent semiannual period, the OIG issued twelve reports. Of those, eight reports were
based on audits/reviews performed by OIG personnel and four reports were the results of OIG desk
reviews of audit reports and other materials related to grantee organizations that were required to
have audits performed by independent auditors. Overall, our reports contained 21 recommendations,
19 of which were related to systems deficiencies and questioned costs at grantee organizations and
the other two recommendations were related to system deficiencies at the NEA.

Audit Resolution

At the beginning of the six-month period, there were two reports awaiting a management decision to
allow or disallow questioned costs. During the period, one new report identified questioned costs of
$204,683 and potential refunds of $137,156.

No management decision was made on the three open reports although audit resolution activity was
ongoing. (See page 6, Section 10.) Therefore, at the end of the period, three reports remained
outstanding with questioned costs of $503,612 and potential refunds of $264,668. (See Table I.)

Investigations

The OIG opened one new allegation case during the recent six-month period. The new case and one
of the prior open cases have been closed. The remaining open case from the prior period is
undergoing further review. No criminal investigations were performed during the period.

Indirect Cost Rate Negotiations

Indirect costs are incurred for common or joint objectives, which cannot be readily and specifically
identified with a particular project or activity. The costs of operating and maintaining facilities,
depreciation or use allowances, and administrative salaries and supplies are typical examples of costs
that nonprofit organizations usually consider to be indirect.

Indirect cost rates are negotiated by agreement between a non-Federal organization and a Federal
agency (usually the agency that furnishes the preponderance of Federal funding) that acts on behalf of
all Federal agencies in approving rates with the organization. During this period, the OIG negotiated
four indirect cost rate agreements with NEA grantee organizations.

The OIG also makes use of an Indirect Cost Guide. The Guide answers such questions as: What are
direct or indirect costs, what is an indirect cost rate, and does an entity need an indirect cost rate? A
copy of the Guide can be found on NEA’s web site at www.arts.gov/about/OIG/IndirectCost.html.


                                                                                                        2
Review of Legislation, Rules, Regulations and Other Issuances

The OIG is required to review and comment on proposed legislation and regulations for their potential
impact on the Agency and its operations. During this reporting period, the OIG provided analyses and
written commentaries on Agency Administrative Directives, and other government publications/reports.

Technical Assistance

The OIG provided technical assistance to NEA grantees and their independent auditors. Our efforts
included, for example, clarifying and interpreting the audit requirements of OMB Circular A-133,
“Audits of States, Local Governments, and Non-Profit Organizations," explaining alternative methods
of accounting for indirect costs, and advising some of the first-time and smaller organizations on
implementing practical accounting systems and internal controls sufficient to assure compliance with
their grant agreements.

The OIG also assisted Agency staff with technical issues related to auditing, accounting and audit
followup.

Web Site

The OIG maintains an ongoing Internet presence (www.arts.gov/about/OIG/Contents.html) to assist
and inform NEA grantees and Agency employees. The site includes the Inspectors General Vision
Statement, our two Financial Management Guides, our Indirect Cost Guide, past Semiannual Reports
to the Congress, the OIG Strategic Plan, information about contacting OIG staff, how to report
wrongful acts, information about alternative methods of funding, and answers to frequently asked
questions.

Other Activities

During this period, the OIG took part in the activities of the Executive Council on Integrity and
Efficiency (ECIE), and allocated resources for responding to information requests from and for the
Congress and other agencies. We continued to participate in an advisory capacity in the Agency's
implementation of the Federal Information Security Management Act (FISMA). The OIG also provided
oversight of the Agency’s independent auditors as they completed the Agency’s second financial
statement audit for the fiscal year ending September 30, 2004. In addition, during this period, the OIG
initiated a new evaluation program for grantees called “Financial Management System & Compliance
Evaluation.” The objective of this evaluation is to determine whether the grantee’s financial
management system and recordkeeping complies with the requirements established by the Office of
Management and Budget and the NEA’s General Terms and Conditions for Grants and Cooperative
Agreements to Organizations.




                                                                                                       3
                                       SECTIONS OF REPORT

The following sections of this report discuss the 12 areas specifically required to be included
according to Section 5(a) of the Act. Table I shows Inspector General issued reports with
questioned costs and Table II also shows that there were no Inspector General issued reports with
recommendations that funds be put to better use.

SECTION 1 – Significant Problems,                   SECTION 2 – Recommendations for
Abuses and Deficiencies                             Corrective Action

Audits and other reviews conducted by OIG           To assist grantees in correcting or avoiding
personnel during the current and prior periods      the deficiencies identified in Section 1, the
have disclosed a few instances of deficient         OIG has prepared two “Financial
financial management practices in some              Management Guides,” one for non-profit
organizations that received NEA grants.             organizations and the other for state and local
Among these were:                                   governments. The guides are not offered as
                                                    complete manuals of procedures; rather, they
•   Reported grant project costs did not agree      are intended to provide practical information
    with the accounting records, i.e., financial    on what is expected from grantees in terms of
    status reports were not prepared directly       fiscal accountability. The guides are available
    from the general ledger or subsidiary           on NEA’s web site at
    ledgers or from worksheets reconciled to        www.arts.gov/about/OIG/Contents.html
    the accounts;
                                                    The guides discuss accountability standards
•   Personnel costs charged to grant projects       in the areas of financial management, internal
    were not supported by adequate                  controls, audit and reporting. The guides also
    documentation, i.e., personnel activity         contain sections on unallowable costs and
    reports were not maintained to support          shortcomings to avoid. In addition, the guides
    allocations of personnel costs to NEA           include short lists of useful references and
    projects;                                       some sample documentation forms.

•   The amount allocated to grant projects for      SECTION 3 – Recommendations in
    common (indirect) costs which benefited         Previous Reports on Which Corrective
    all projects and activities of the              Action Has Not Been Implemented
    organization was not supported by
    adequate documentation; and                     There were no significant recommendations
                                                    in previous reports on which corrective action
                                                    has not been implemented.
•   Grantees needed to improve internal
    controls, such as ensuring a proper
                                                    SECTION 4 – Matters Referred to
    separation of duties to safeguard
                                                    Prosecuting Authorities
    resources and including procedures for
    comparing actual costs with the budget.
                                                    No matters were referred to prosecuting
                                                    authorities during this reporting period.

                                                    SECTION 5 – Denials of Access to Records

                                                    No denials of access to records occurred
                                                    during this reporting period.
                                                                                                      4
SECTION 6 – Listing of Reports Issued

REPORT                                                                                            DATE OF
NUMBER                                           TITLE                                            REPORT

                          Oversight Audit Agency Review Reports

OAA-05-01          State of Alaska                                                                 10/18/04
OAA-05-02          New York Foundation for the Arts, Inc.                                          11/16/04
OAA-05-03          Miami-Dade County, Florida                                                      11/16/04
OAA-05-04          The Woolly Mammoth Theatre Company                                              11/22/04



                                  Limited Scope Audit Reports

LS-05-01           Mad River Theater Works                                                          1/25/05
LS-05-02           Real Art Ways, Inc.                                                              2/17/05
LS-05-03           City Lore, Inc.                                                                  2/23/05


                                      Special Review Report

                   FY 2004 Evaluation of NEA's Compliance with the Federal Information Security
R-05-01                Management Act of 2002                                                      10/05/04


                                             Audit Report

A-05-01            NEA Audit of Financial Statements                                               11/15/04


                                   Financial Analysis Report

FA-05-01           Los Angeles Contemporary Exhibitions, Inc.                                       3/17/05


            Financial Management System & Compliance Evaluation Reports

SCE-05-01          Dayton Contemporary Dance Guild, Inc.                                           11/17/04
SCE-05-02          Dayton Philharmonic Orchestra Association                                       11/17/04




                                       TOTAL REPORTS – 12



                                                                                                   5
SECTION 7 – Listing of Particularly               2. LS-04-03 – Wolf Trap Foundation for
Significant Reports                                  the Performing Arts – Issued 6/16/04

There were no particularly significant reports    Recommendation
during the reporting period.
                                                  Grantee should document costs questioned
SECTION 8 – Statistical Tables Showing            under three of the grants.
Total Number of Audit Reports and the
Dollar Value of Questioned Costs                  Reason No Management Decision Was
                                                  Made
Table I of this report presents the statistical
information showing the total number of audit     Grantee responded to one of the grants and
reports and the total dollar value of             the costs were allowed. The remaining two
questioned costs.                                 grants are still active and will not end prior to
                                                  9/30/05. In addition, funds that were unused
SECTION 9 – Statistical Tables Showing            on one of the active grants have been
Total Number of Audit Reports and the             returned to the NEA. Therefore, the
Dollar Value of Recommendations that              recommendation will remain open until the
Funds be Put to Better Use by                     grants are closed and the costs incurred
Management                                        under the grants can be evaluated.

As shown on Table II, there were no audit         SECTION 11 – Significant Revised
reports with recommendations that funds be        Management Decisions Made During the
put to better use by management.                  Period

SECTION 10 – Audit Reports Issued Before          No significant revised management
the Commencement of the Reporting                 decisions were made during the reporting
Period for Which No Management Decision           period.
Has Been Made by the End of the Report-
ing Period                                        SECTION 12 – Significant Management
                                                  Decisions With Which the Inspector
1. LS-04-02 – National Council for the            General Disagrees
   Traditional Arts – Issued 5/11/04
                                                  There were no significant management
Recommendation                                    decisions that the Inspector General
                                                  disagreed with during the reporting period.
Grantee should refund the $59,645 of
unallowable costs for Cooperative Agreement
DCA 01-24.

Reason No Management Decision Was
Made

Grantee responded to the five-part
recommendation. Two of the five parts were
cleared and some of the unallowed costs
were refunded. Additional information was
requested. Grantee’s subsequent response
has been received and will be reviewed
shortly. A management decision should be
finalized by May 31, 2005.
                                                                                            6
                                                      TABLE I

   INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED
                        COSTS


                                                                      QUESTIONED UNSUPPORTED                    POTENTIAL
                                                       NUMBER             COSTS               COSTS              REFUNDS1
  A. For which no management decision
      has been made by the commencement
      of the reporting period
                                                            2               298,929           (298,929)          127,512

  B. Which were issued during the reporting
      period                                                1               204,683           (204,683)             137,156


      Subtotals (A + B)                                     3               503,612           (503,612)             264,668


  C. For which a management decision was
      made during the reporting period                      0                      0                  (0)                   0


       (i)       Dollar value of disallowed costs           0                       0                 (0)                   0


       (ii)      Dollar value of costs not
                 disallowed                                 0                       0                 (0)                   0


  D. For which no management decision has
      been made by the end of the reporting
      period                                                3               503,612           (503,612)             264,668


      Reports for which no management
      decision was made within six months of
      issuance                                              2               298,929           (298,929)             127,512


1/ The potential refund amount usually will not equal the questioned costs amount because matching requirements must be

   considered and the grantee may be either under or over matched. In addition, historically, the potential refund generally is
   reduced significantly as a result of the audit followup process, which includes examination of documentation submitted by the
   grantee.




                                                                                                                                  7
                                 TABLE II

             INSPECTOR GENERAL ISSUED REPORTS


WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                            DOLLAR
                                                   NUMBER   VALUE

A. For which no management decision has been
   made by the commencement of the reporting
   period                                            0           0

B. Which were issued during the reporting period     0           0

   Subtotals (A + B)                                 0           0

C. For which a management decision was made
   during the reporting period                       0           0

   (i) dollar value of recommendations
       that were agreed to by management             0           0

       -   based on proposed management action       0           0

       -   based on proposed legislative action      0           0

   (ii) dollar value of recommendations
        that were not agreed to by management        0           0

D. For which no management decision has been
   made by the end of the reporting period           0           0

   Reports for which no management decision was
   made within six months of issuance                0           0




                                                             8
                                                                                   APPENDIX A

                               DEFINITIONS OF TERMS USED


The following definitions apply to terms used in reporting audit statistics:


Questioned Cost                        A cost that the Office of Inspector General (OIG)
                                       questioned because of alleged violation with a provision of
                                       a law, regulation, contract, or other agreement or
                                       document governing the expenditure of funds; such cost is
                                       not supported by adequate documentation; or the
                                       expenditure of funds for the intended purpose is
                                       unnecessary or unreasonable.

Unsupported Cost                       A cost which the OIG questioned because the cost was not
                                       supported by adequate documentation at the time of the
                                       audit.

Disallowed Cost                        A questioned cost that management has sustained or
                                       agreed should not be charged to the NEA grant or
                                       cooperative agreement.

Funds Be Put To Better Use             A recommendation made by the OIG that funds could be
                                       used more efficiently if management took actions to
                                       implement and complete the recommendation.

Management Decision                    Management's evaluation of the findings and
                                       recommendations contained in the audit report and the
                                       issuance of management’s final decision, including actions
                                       to be taken. Interim decisions and actions are not
                                       considered final management decisions for the purpose of
                                       the tables in this report.

Final Action                           The completion of all actions that management has
                                       concluded in its management decision with respect to audit
                                       findings and recommendations. If management concluded
                                       that no actions were necessary, final action occurs when a
                                       management decision was made.
                      REPORTING WRONGFUL ACTS

Anyone, including Agency employees, who learns about or has reason to suspect the
occurrence of any unlawful or improper activity related to NEA operations or programs,
should contact the OIG immediately. A complaint/referral may be made by visiting the
OIG office, calling the OIG at 202-682-5402, emailing at oig@arts.endow.gov or writing to
the Office of Inspector General, Room 601, 1100 Pennsylvania Avenue, NW, Washington,
DC 20506.


When contacting the OIG, it will help if you have answers to the following questions:
   •   Who are the parties involved (names, addresses and phone numbers if possible);

   •   What is the suspected activity (specific facts of the wrongdoing);

   •   When and where did the wrongdoing occur;

   •   How did you learn about the activity (from a third party, actual observation, conclusion drawn from
       observing or performing different activities, etc.); and

   •   Where can you be contacted or when will you contact us again.



The OIG will not disclose the identity of a complainant or informant without consent,
unless the Inspector General determines that such disclosure is unavoidable during the
course of the investigation. You may remain anonymous, if you choose. Federal employees
are protected against reprisal for disclosing information to the Inspector General unless
such disclosure was knowingly false.
  National Endowment for the Arts




 CHAIRMAN’S SEMIANNUAL REPORT
                ON
   FINAL ACTION RESULTING FROM
          AUDIT REPORTS




October 1, 2004 through March 31, 2005




             May 2005
                              TABLE OF CONTENTS




INTRODUCTION                                                            1


REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS

  Section 1    Comments Regarding the Inspector General's Report        2

  Section 2    Management Report on Final Action on Audits with         3
               Disallowed Costs for the Six-Month Period Ending
               March 31, 2005

  Section 3    Management Report on Final Action on Audits with         3
               Recommendations to Put Funds to Better Use for
               the Six-Month Period Ending March 31, 2005

  Section 4    Audit Reports for Which a Management Decision Was        4
               Made Prior to April 1, 2004, but on Which Final Action
               Has Not Occurred

  Table A      Management Report on Final Action on Audits with         5
               Disallowed Costs for the Six-Month Period Ending
               March 31, 2005

  Table B      Management Report on Final Action on Audits with         6
               Recommendations to Put Funds to Better Use for the
               Six-Month Period Ending March 31, 2005
                                  INTRODUCTION


The Inspector General Act of 1978, as amended by the Inspector General Act Amendments of 1988
(Public Law 100-504), established independent, objective units within Federal agencies for the
following purposes:

   •   To supervise and conduct audits and investigations of agency programs and operations;

   •   To lead, coordinate, and recommend policies for promoting economy, efficiency, and
       effectiveness in the administration of programs and operations, and to prevent and detect
       fraud and abuse therein; and

   •   To keep the agency head and the Congress informed about related problems and deficiencies
       and associated corrective action.

Section 106(a) of P.L. 100-504 requires the Inspector General to report semiannually on the office’s
activities for the preceding six-month periods ending March 31st and September 30th. The report
must (1) address significant problems, abuses, and deficiencies in the management of agency
programs and operations identified during the reporting period, and (2) identify recommendations
for corrective action. Section 106(b) directs the Inspector General to furnish this report within 30
days to the agency head, who is required to prepare a separate report on management decisions
resulting from audit reports, the status of disallowed costs, and final actions taken during the
corresponding period, including any comments deemed appropriate. The agency head must transmit
both reports to the Congress within the ensuing 30 days.

Accordingly, the Chairman presents the Arts Endowment’s management report for the period
October 1, 2004 through March 31, 2005.




                                        Page 1 of 6
             REPORT ON FINAL ACTION RESULTING FROM AUDIT REPORTS


Section 1.    Comments Regarding the Inspector General's Report

              A. Comments on the Executive Summary.

                 Audits/Reviews. As reported in the Inspector General’s Semiannual Report to the
                 Congress, at the beginning of the reporting period there were two reports awaiting
                 a management decision to allow or disallow questioned costs. During the period
                 one new audit report revealed questioned costs and potential refunds. Final
                 management decisions were not made on these three reports, for reasons discussed
                 in the IG’s report (Section 10). Management continues to work with these
                 awardees to resolve the outstanding audit issues. On audit reports pending final
                 action, there is a total of $462,964 in disallowed costs, with potential refunds of
                 $498,611. As final actions occur on these reports, including receipt of required
                 refunds, they will be reported in a subsequent Chairman’s Semiannual Report.

                 When the Audit Followup Official disallows questioned costs, it is typically
                 because the grantee or cooperator has responded inadequately to the Arts
                 Endowment’s request for supporting documentation, such as canceled checks,
                 invoices, contracts, personnel activity reports, or testimonial evidence. Agency
                 funds usually represent a small portion of an awardee’s total project costs.
                 Deficiencies normally are resolved through the Agency’s audit resolution process,
                 and refunds are infrequent.

                 The IG also made two recommendations related to the Arts Endowment’s
                 information technology systems as a result of the IG’s evaluation of Agency
                 compliance with the Federal Information Security Management Act of 2002.
                 Management acted upon these immediately. One – development of “written
                 policies and procedures related to change management and control for the
                 development and modification of systems” – has been fully implemented; the
                 policies and procedures have been posted to the Agency’s Intranet. In response to
                 the second recommendation – to “establish a training plan that includes periodic
                 refresher IT security awareness training to all NEA employees” – the Office of
                 Information & Technology Management developed such a plan and began initial
                 implementation during the period.

                 Financial Statements. Arts Endowment staff continued to work closely with the IG
                 on issues of mutual interest, most notably completion of the Agency’s first
                 required Performance and Accountability Report, in which we reported that the
                 Arts Endowment’s independent auditor issued an unqualified opinion for the years
                 ended September 30, 2004, and 2003.

                 Improved Oversight. During the period the Grants & Contracts Office and the IG
                 continued to collaborate on complementary technical assistance and monitoring
                 programs for grantees to help them better manage their Federal awards.
                                        Page 2 of 6
                Web Site. The Arts Endowment’s Grants & Contracts Office introduced a
                significant enhancement to the Office’s “My Grant At a Glance” feature on the
                Agency Web site. Grantees can now produce their own grant history with the Arts
                Endowment, an enhancement that has the potential to help grantees keep track of
                the timelines and requirements associated with each of their grants.

             B. Comments on Sections 1 and 2.

                IG audit reports on Arts Endowment awardees are based upon reviews conducted
                by the IG itself or upon IG analysis of audits completed by outside auditors. The
                outside audits may be performed by State audit agencies, by other Federal agencies
                (generally the agency providing the greatest amount of Federal funding to an
                organization also supported by the Arts Endowment), or by independent public
                accountants engaged by awardees.

                The Arts Endowment places a high priority on ensuring its employees are well
                informed about policies, procedures, and requirements related to grants
                administration and audits. The Grants & Contracts Office routinely conducts
                training on various topics for Agency staff, including targeted one-on-one training
                as necessary. The Arts Endowment fosters improved grantee compliance with
                Federal administrative requirements and strives to exercise responsible oversight.
                As mentioned above, the Agency continues to expand and strengthen its grantee
                technical assistance efforts. IG observations are integral to the maintenance of
                valid management policy and practice, and have been tools for constructive
                change.


Section 2.   Management Report on Final Action on Audits with Disallowed Costs for the
             Six-Month Period Ending March 31, 2005 (Section 8 of the IG Report)

             While substantial progress was made in resolving the audits issued during the period
             (see Section 1.A.), there were no final actions on audit reports with disallowed costs
             during the period (see Table A).

Section 3.   Management Report on Final Action on Audits with Recommendations to Put
             Funds to Better Use for the Six-Month Period Ending March 31, 2005
             (Section 9 of the IG report)

             There were no audits with recommendations to put funds to better use awaiting final
             action as of March 31, 2005 (see Table B).




                                        Page 3 of 6
Section 4.   Audit Reports for Which a Management Decision Was Made Prior to
             April 1, 2004, but on Which Final Action Has Not Occurred

             One management decision was made prior to April 1, 2004 on which final action has
             not yet occurred, LS-03-01: National Black Touring Circuit, Inc. (issued 6/12/03). On
             February 4, 2004, management requested a refund of $30,000 from the auditee. On
             March 12, 2004, the auditee agreed to an installment payment plan, with final payment
             due by March 31, 2007. The auditee is current with payments, having returned $5,000
             through March 31, 2005.




                                       Page 4 of 6
                                                TABLE A

                    MANAGEMENT REPORT ON FINAL ACTION
                     ON AUDITS WITH DISALLOWED COSTS
               FOR THE SIX-MONTH PERIOD ENDING MARCH 31, 2005


                                                      # OF AUDIT DISALLOWED POTENTIAL
                        ITEM                           REPORTS      COSTS   REFUNDS

A.   Audit reports with management decisions
     on which final action had not been
     completed at the beginning of the reporting
     period.
                                                          2          $462,964   $498,611

B.   Audit reports on which management
     decisions were made during the period.

                                                          0         0           0

C.   Total audit reports pending final action
     during the period (A+B).
                                                          2          $462,964   $498,611

D.   Audit reports on which final action was
     taken during the period:



     1. Recoveries

       a. Collection & offsets                            0         0           0

       b. Property                                        0         0           0

       c. Other                                           0         0           0


     2. Write-offs                                        0         0           0


     3. Total (D1 + D2)                                   0         0           0


E.   Audit reports needing final action at the
     end of the period (C-D3).
                                                          2          $462,964   $498,611




                                        Page 5 of 6
                                             TABLE B

            MANAGEMENT REPORT ON FINAL ACTION ON AUDITS
           WITH RECOMMENDATIONS TO PUT FUNDS TO BETTER USE
             FOR THE SIX-MONTH PERIOD ENDING MARCH 31, 2005

                                                                               FUNDS TO BE
                                                                  # OF AUDIT     PUT TO
                               ITEM                                REPORTS     BETTER USE


A.   Audit reports with management decisions on which final
     action had not been taken at the beginning of the
     reporting period.
                                                                      0            $0


B.   Audit reports on which management decisions were
     made during the period.
                                                                      0             0


C.   Total audit reports pending final action during the period
     (A+B).
                                                                      0            $0


D.   Audit reports on which final action was taken during the
     period:


     1. Dollar value of recommendations
        implemented:

        a. Based on management action                                 0             0
        b. Based on proposed legislative action                       0             0


     2. Dollar value of recommendations not
        implemented
                                                                      0             0


     3. Total (D1 + D2)                                               0            $0

E.   Audit reports needing final action at end of the period
     (C-D3).
                                                                      0            $0




                                       Page 6 of 6
